Q ORIGINAL
No.

Supreme Court of tfje QHmteb States;
TYRONE CAMMON,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CERTIFICATE OF FILING
AND SERVICE
I, Tyrone Cammon, being first duly sworn according to law, depose and say that the
required number of the following documents:
1.)

Petition for Writ of Certiorari to the United States Court of Appeals for the
Sixth Circuit;

2.)

Motion for Leave to Proceed in Forma Pauperis;

were this day filed with this Court and served on counsel for the United States on this same date,
by depositing the required number of originals and copies of the documents into the prison legal
mail collection box, in sealed envelopes, first class United States postage prepaid nnrl

I'

to: Supreme Court of the United States, Office of the Clerk, 1 First Street N.E.,
Washington, DC 20543, and United States Attorney, For The Northern District of Ohio, 801
Superior Ave, W #400, Cleveland, OH 44113, (216-622-3731) (counsel for respondent) and
Solicitor General, Department of Justice, Washington, DC 20530 (Phone: 202-514-2217)
(counsel for respondent).
I further state that 1 am incarcerated in the federal prison at Bruceton Mills, WV 26525,
and am filing the documents pro se.
Signed under penalty of perjury
under 28 U.S.C. ยง 1746, this 3
j 2021.
day of
c

1

TYRONE CAMMON
65353-060
P.O. Box 2000
Bruceton Mills, WV 26525

